TO:            Edwin L. Walker
               Deputy Assistant Secretary for Policy and Programs
               Administration on Aging

FROM:          Debra L. Robinson /S/
               Acting Deputy Inspector General
                 for Evaluation and Inspections

SUBJECT:	      Performance Data for the Senior Medicare Patrol Projects: October 2003
               Performance Report (OEI-02-03-00121)


At the request of the Administration on Aging (AoA), the Office of Inspector General (OIG) collects
performance data for the Senior Medicare Patrol Projects. Twelve projects have been in operation
since the inception in 1997. An additional 29 projects were added in 1999. Seven projects began
operating in 2000. Four new projects were added in 2001, and four more in 2002. The attachments
present cumulative performance data for each of the 56 projects. Three of the 56 projects -- Arkansas
Seniors Organized for Progress, Texas-Baylor University, and Ohio-Western Reserve Area Agency on
Aging -- ceased operations in 2002. We collected the data from each of the projects for the 6-month
period, January through June 2003. Please note that we have not independently verified the accuracy of
these self-reported data.

From July 1, 1997, through June 30, 2003, a total of 39,735 volunteers have been trained to detect
fraud, waste, and abuse in the Medicare program. In-turn, these volunteers have conducted 294,649
training sessions and one-on-one encounters, in which approximately 1.37 million Medicare
beneficiaries were educated. Once educated, these beneficiaries reported 33,125 complaints, of which
7,181 were referred for follow up. Investigative agencies took action on 3,204 of these referrals. In
total, the projects are responsible for the recoupment of over $103 million to Medicare, Medicaid, and
other payers. Specifically, this total includes $3,751,894 in Medicare funds recouped. The projects
have also self-reported recoupment of $99,318,530 to Medicaid and other payers.

The 53 projects that are currently operating trained a total of 5,035 new volunteers from January
through June 2003. As a result of holding 94,154 training sessions and one-on-one encounters,
volunteers educated 273,559 Medicare beneficiaries during these 6 months. Almost 10,000 complaints
were reported to the projects between January and June 2003. Documentation received provides
evidence of $72,249 in Medicare funds recouped in the 6-month period as a direct result of the
projects. Self-reported savings to other payers totaled $21,871,947.
Page 2 – Edwin L. Walker

Of the 53 current projects, 11 reported savings to the Medicare program in the past 6 months. Six of
these projects submitted Centers for Medicare & Medicaid Services’s contractor-based complaint
tracking system reports. These reports, forwarded from the Medicare contractors to the projects,
provide clear documentation of savings to the Medicare program. Of the money that was reported
recouped in the past 6 months, $58,287 was documented in these tracking reports.

We continue to emphasize that a significant number of the beneficiaries, who have learned to detect
fraud, waste, and abuse from the Senior Medicare Patrol Projects, are calling the OIG fraud hotline or
other contacts. The projects are not able to track this activity, and thereby, are not receiving full credit
for savings attributable to their work. In addition, substantial savings, which cannot be tracked, may be
derived from a sentinel effect whereby fraud and errors are reduced in light of Medicare beneficiaries’
scrutiny of their bills.

We will continue to monitor the projects and provide you with summary reports of performance data. If
you have any questions, please call me at (202) 619-0480, or one of your staff may contact Thomas
Zimmermann at (212) 264-2000.

Attachments
                                                                                                                                                                                         APPENDIX A


    72-Month Outcomes Reported by the 12 Senior Medicare Patrol Projects beginning July 1, 1997

             Activity                     TOTAL              CA              HI            IA            IL          MD            MN              MO          NH            NY           PA        RI         WI

             OUTPUTS

# training sessions                              1,742             103             65           338            32         268            98              42          20           592          86         13         85

# trainers trained                             22,933            2,273            308        2,775            286      2,917            610             212         734       11,254        335          253        976

# media events                                 31,014              225        4,698          2,775        6,120           396           454              74      1,106            424          80    8,998       5,664

# community education events                                       148             76           906           378      1,593            936             265         268        1,234        349           86        248
                                                 6,487

           OUTCOMES

total # trainers who have ever
conducted activities                             6,952             412            151           DK            259         110           307             212         711        4,357        172           26        235

# group sessions                               11,629            1,848            386        1,960        1,751        1,264            907             272         477        1,202        790          295        477

# beneficiaries at group sessions             508,926          84,848        12,469        61,514        74,763       30,346       16,593          14,021       64,243        34,428      94,030     7,135      14,536

# one -on-one sessions                         68,060              713              0           292           591     12,698            589        17,410       24,563        10,483        375            1        345

total # beneficiaries educated                576,986          85,561        12,469        61,806        75,354       43,044       17,182          31,431       88,806        44,911      94,405     7,136      14,881

estimated # people reached by
community education events                  9,418,181          59,936        30,064       336,282        37,731       89,206       29,113      249,652          65,373       376,927 8,016,179      90,623      37,095

# complaints received                          17,241              831            239        1,246            368      1,625            354              46      4,797         6,221       1,185          60        269

# complaints referred for
follow up                                        1,933             275             53           424           117         243           157              44         119           239       107           40        115

# complaints resulting in some
action                                             693              65            DK             46            12         104            69              14          43           239          41          6         54

Medicare $ recouped                        $2,812,254      $1,334,952             DK $1,147,524                $0         DK     $109,997      $10,910           $107        $52,699 $144,339             $0   $11,726

Other $ recouped                                                                  DK                                                                                                 1
                                         $97,971,501          $75,596                   $1,324,867    $146,485            DK      $31,681 $2,124,926          $150,052 $94,101,200        $1,935          $0   $14,759

Total $ recoupe d                       $100,783,755       $1,410,548              $0 $2,472,391      $146,485             $0    $141,678 $2,135,836          $150,159    $94,153,899 $146,274            $0   $26,485




Note: DK = Do not know
     1   Represents recoupments to the Medicaid program due to adjustments to Medicaid claims for individuals who are also entitled to Medicare.
                                                                                                                                                                        APPENDIX B


    48-Month Outcomes Reported by the 29 Senior Medicare Patrol Projects beginning July 1, 1999

            Activity               TOTAL         AK           AL        AR2        AZ        CO         CT         DC3            DC4          DE          FL        GA5        GA6         ID         IN

            OUTPUTS

# training sessions                     3,188         63        103         12          75         42        32          13              9           55         38         63     325            240         18

# trainers trained                     13,132       130         391       129         198         334      524           63             70          388       302        170     2,225           850        332

# media events                         23,865         51        126         35        551          49      903           37             55       4,770        996          71    1,148       3,952           56

# community education events           11,516         82        367         91        435                  796           50                         144       214          75    2,389           254        160
                                                                                                  648                                   29

           OUTCOMES

total # trainers who have ever
conducted activities
                                        5,720         83        352         43        168          44      383           63             28           99       137        155      946            204         25

# group sessions                       13,716       102         471         92        410         432      123         227              96          439       268        521     2,840           884         62

# beneficiaries at group
sessions
                                     531,032      3,354       23,622     8,787     56,751    12,206       4,012      7,222         3,061        11,112     15,333     14,753    85,488      46,806      1,767

# one-on-one sessions                185,257      2,391         503         51        280         265        71        130          670              84       461      1,238     3,284       1,175          104

total # beneficiaries educated       716,289      5,745       24,125     8,838     57,031    12,471       4,083      7,352         3,731        11,196     15,794     15,991    88,772      47,981      1,871

estimated # people reached by
community education events
                                    3,023,338    37,201       71,726     9,673     67,977    23,388      43,169    187,650        21,000       135,791    183,681      5,745 1,120,680      14,876     26,533

# complaints received                  14,749       448         277         50      2,035         229      194         402              94          147       607          74         43     6,225            8

# complaints referred for
follow -up
                                        4,944         22        138         14        152          19        35          55              0           31         23         12         21     2,790            8

# complaints resulting in some
action
                                        2,371          7           23      DK           22        DK          4          11              0            1          9          0          5     1,425            2

Medicare $ recouped                 $249,879          $0           $0      DK        $429     $453      $30,785     $1,329              $0      $5,388     $4,601          $0         $0   $10,970     $4,441

Other $ recouped                   $1,326,679   $13,495            $0      DK      $3,271    $3,450          $0          $0             $0           $0 $121,359           $0         $0 $687,037            $0

Total $ recouped                   $1,575,328   $13,495            $0       $0     $3,700    $3,903     $30,785     $1,329              $0      $5,388 $125,960            $0         $0 $698,007      $4,441

2. Project ended June 30, 2002   3. The AARP Foundation, DC        4. Friendship House, DC   5. Atlanta Regional Commission, GA         6. Department of Human Resources, GA
                                                                                                                                                                                    APPENDIX B


    48-Month Outcomes Reported by the 29 Senior Medicare Patrol Projects beginning July 1, 1999

           Activity                    MA           ME         MI           MT         NM           NV          OH7           OK            OR          PR          TX8         TX9         UT        VA        WA

           OUTPUTS

# training sessions                         243        110          45           32         34            73            6             23         76          38           18        103          96        42     1,161

# trainers trained                          287        356        690          133         713           178          113            254        710         337          244        794       660        661       896

# media events                              242        236          36       2,702         218        4,839           101             52        266         148          213        192          61      396      1,363

# community education events              1,887        579        108          227         302           111          159            301         95         544          135        341       238        435       320

          OUTCOMES

total # trainers who have ever
conducted activities
                                            117        203        200          103          90            95           45             27        239          51          244        302       192        186       896

# group sessions                          1,825        383        195          300         131            99          319             92        177         378           72        496       263        883      1,136

# beneficiaries at group
sessions                                 36,114      9,654     12,757        7,438     10,552         7,752         9,734       7,324        16,462       7,286        1,375     14,924      6,824     34,921    53,641

# one-on-one sessions                    40,064        950          79         259       7,059            62        1,582             21      2,501       4,271          255      1,351      2,823       362    112,911

total # beneficiaries educated           76,178     10,604     12,836        7,697     17,611         7,814       11,316        7,345        18,963      11,557        1,630     16,275     9,647      35,283   166,552

estimated # people reached by
community education events               50,161     53,856     13,452        7,724    215,500       22,798        33,346       48,081        16,951      18,717        8,249     74,656     34,062    346,598   130,097

# complaints received                       197        118        228          217         228           339           39            144         67       1,488           51        274          96      315       115

# complaints referred for
follow -up                                   53          49         69           47        113            38           21             28         18         771           16          98         39      222         42

# complaints resulting in some
action                                       DK          18             0        12        155             6            1              4          5         560           13          32          2        26        28

Medicare $ recouped                          DK          DK   $17,320            $0    $5,102         $787          $395            $461     $1,230      $7,653           $0   $16,007           $0   $21,256 $121,272

Other $ recouped                        $51,949     $1,086          $0      $1,079 $251,647         $3,723             $0             $0   $138,573          $0           $0   $32,263      $4,485         $0   $13,262

Total $ recouped                        $51,949     $1,086    $17,320       $1,079 $256,749         $4,510          $395            $461   $138,573      $7,653           $0   $48,270      $4,485    $21,256 $134,534

7. Ohio-Western Reserve Area on Aging Project ended December 31, 2002       8. Baylor University, TX: project ended June 30, 2002           9. The National Hispanic Council on Aging, TX
                                                                                                                            APPENDIX C


36-Month Outcomes Reported by the 7 Senior Medicare Patrol Projects beginning July 1, 2000

                    Activity               TOTAL       LA         MS           NC         NE          SC         SD         WY

                    OUTPUTS

       # training sessions                      438          17          75         285          36         13          6          6

       # trainers trained                      2,986        196         414     1,415           443        167        168        183

       # media events                          1,097         58          67         192         705         10         34         31

       # community education events            1,150                    250         470         184         71         26         85
                                                             64
                  OUTCOMES

       total # trainers who have ever
       conducted activities
                                                817          60         195         171         311         37         15         28

       # group sessions                        1,049         96         287         253         203         52         60         98

       # beneficiaries at group sessions      33,541    1,646          8,776    8,202        7,632     2,018      1,611       3,656

       # one -on-one sessions                 11,151        268        7,589    1,297           658         91        197     1,051

       total # beneficiaries educated         44,692    1,914      16,365       9,499        8,290     2,109      1,808       4,707
       estimated # people reached by
       community education events
                                             286,421    3,281      31,698      42,036      185,011    12,207      2,732       9,456

       # complaints received                    905          53         450         209          50         79         12         52

       # complaints referred for
       follow up
                                                237          13          32          77          26         59          3         27

       # complaints resulting in some
       action
                                                122           7          31          29           9         21          2         23

       Medicare $ recouped                  $664,510         $0        $841     $140      $643,465    $7,274           $0   $12,790

       Other $ recouped                      $14,988         $0    $1,543       $108           $120         $0         $0   $13,217

       Total $ recouped                     $679,498         $0    $2,384       $248      $643,585    $7,274           $0   $26,007
                                                                                                                     APPENDIX D

24-Month Outcomes Reported by the 4 Senior Medicare Patrol Projects beginning July 1, 2001

                            Activity                TOTAL         KY           NJ           TN            WV

                            OUTPUTS

                # training sessions                         165          88            6            67           4

                # trainers trained                          540         213           47           273           7

                # media events                              698         288           10           372          28

                # community education events                339         169           14           134          22

                           OUTCOMES

                total # trainers who have ever
                conducted activities                        357         192           35           123           7

                # group sessions                            908         509          110           282           7

                # beneficiaries at group sessions       28,574     13,321           5119         10,099         35

                # one -on-one sessions                   2,711         1,966          28           711           6

                total # benefi ciaries educated         31,285     15,287           5,147        10,810         41

                estimated # people reached by
                community education events              79,914     56,536           9,050        13,928        400

                # complaints received                       166          63           50            53           0

                # complaints referred for
                follow up                                    35           2            6            27           0

                # complaints resulting in some
                action                                       12           0            3             9           0

                Medicare $ recouped                         261          $0         $261            $0          $0

                Other $ recouped                        $5,362           $0           $0         $5,362         $0

                Total $ recouped                        $5,623           $0         $261         $5,362         $0
                                                                                                                                                              APPENDIX E



12-Month Outcomes Reported by the 4 Senior Medicare Patrol Projects beginning July 1, 2002

                                    Activity                    TOTAL                AR10            OH11                   OH12               TX13

                                    OUTPUTS

                       # training sessions                                  17                1                   6                    5                  5

                       # trainers trained                                  144                7                  44                   55                 38

                       # media events                                      992                1             100                     882                   9

                       # community education events                        285               13             108                       19               145

                                   OUTCOMES

                       total # trainers who have ever
                       conducted activities                                 58                2                  16                   15                 25

                       # group sessions                                    113                5                  14                   39                 55

                       # beneficiaries at group sessions                 2,570              160             245                     834               1,331

                       # one -on-one sessions                               55                0                  16                   12                 27

                       total # beneficiaries educated                    2,625              160             261                     846               1,358

                       estimated # people reached by
                       community education events                       24,005            1,400          11,874                    3,333              7,398

                       # complaints received                                64                3                   0                    7                 54

                       # complaints referred for
                       follow up                                            32                0                   0                    2                 30

                       # complaints resulting in some
                       action                                                 6               0                   0                    0                  6

                       Medicare $ recouped                             $24,990               $0                  $0                   $0           $24,990

                       Other $ recouped                                     $0               $0                  $0                   $0                 $0

                       Total $ recouped                                $24,990               $0                  $0                   $0           $24,990



          10. Arkansas Dept. of Human Services 11. Central Ohio Area Agency on Aging 12. Pro-Seniors, Inc., OH        13. Better Business Bureau Education Foundation, TX
